Case: 19-2002

Document: 36

Filed: 10/21/2020

Pages: 14

3n ffye

Mnitsit States (Kauri of Appeals
Jfcr tJjB

(Etrnrii

No. 19-2002
Patrick J. Gage,
Petitioner-Appellant,
v.
Reed A. Richardson,
Respondent-Appellee.

Appeal from the United States District Court for the
Western District of Wisconsin.
No. 16-CV-849 - James D. Peterson, ChiefJudge.

Argued September 18,2020 — Decided October 21,2020

Before Sykes, Chief Judge, and Hamilton and St. Eve, Cir­
cuit Judges.
St. Eve, Circuit Judge. A Wisconsin jury found Patrick Gage
guilty of repeatedly sexually assaulting his daughter, H.R.G.,
when she was a child. In state postconviction proceedings,
Gage asserted that his trial counsel was ineffective for failing
to interview and present testimony from his son and mother,
Josh and Nancy Gage. The state appellate court concluded
that Gage was not prejudiced by his trial counsel's failure to

Appendix A

(
7

Case: 19-2002

Document: 36

Filed: 10/21/2020

2

Pages: 14

No. 19-2002

call these witnesses because their testimony in postconviction
proceedings was consistent with H.R.G.'s trial testimony. The
state court's decision was not an unreasonable application of
clearly established federal law, so we affirm the district
court's denial of habeas relief.
I. Background
A. Charges and Trial
The state charged Gage with four counts of sexual assault
of H.R.G.1 These assaults occurred in various locations over
several years, including: (1) at Nancy's house—where Gage
was living at the time—when H.R.G. was between nine and
twelve years old (counts one and two); (2) in a cabin behind
Nancy7s house when she was twelve (count three); and (3) at
Gage's residence when she was younger than sixteen (count
four).
At trial, H.R.G. testified that she and her older brother,
Josh, primarily lived with their mother after their parents di­
vorced. They would visit Gage one day per week, every other
weekend, and sometimes for the entire summer. H.R.G. testi­
fied that her father sexually assaulted her almost every time
she visited, though not every time. She described two specific
assaults that occurred- in the basement of Nancy's house
where she, Josh, and Gage slept. The first incident happened
when she was nine or ten. She and Gage were sleeping in the
basement bedroom, and Josh was in the living room. When
everyone was asleep, Gage touched her over her clothes and

1 The state also charged Gage with two additional counts that alleged
that he repeatedly sexually assaulted a former girlfriend's daughter. The
jury found Gage not guilty of those counts.

\i

>
/■

Case: 19-2002

No. 19-2002

Document: 36

Filed: 10/21/2020

Pages: 14

3

tried to put his penis in her mouth. The second assault oc­
curred when she and Gage were sleeping on the pullout
couch in the basement living room and Josh was in the bed­
room.
When H.R.G. was 12, she and Josh stayed with Gage for
the summer in a cabin on Nancy's property. The cabin had a
bedroom, where Josh slept, and a loft above that bedroom,
where H.R.G. slept. H.R.G. testified that Gage climbed the
ladder to the loft and assaulted her. Later, Gage moved to a
new residence. At one point, when H.R.G. was asleep on the
couch and Josh was asleep in the bedroom, Gage came home
and began to sexually assault H.R.G. over her clothes. She
kicked him, he stopped, and that was the last time he as­
saulted her.
On'cross-examination, H.R.G. testified that based oh the
layout'of Nancy's house, Nancy or Josh could have observed
the sexual assaults if they had entered the room. Nancy could
go up and down stairs Without a problem. H.R.G. acknowl­
edged that she was offered the upstairs bedroom to sleep in
but declined. She also stated that sound traveled in the cabin.
In Gage's residence, if Josh had walked out of the bedroom,
he would have been able to see the couch. H.R.G. further tes­
tified that she had not told the details of the first assault to law
enforcement or social workers because she had previously
blocked out the incident.
Gage's counsel did not call Josh or Nancy to testify at trial.
Gage was the only defense witness. The jury found Gage not
guilty of the first count, and guilty of the second, third, and
fourth counts. The state court sentenced him to 33 years of
imprisonment followed by 21 years of extended supervision.

\I

K
>■

Case: 19-2002

Document: 36

4

Filed: 10/21/2020-

Pages: 14

No. 19-2002

B. Postconviction Proceedings
Gage filed a motion for postconviction relief in the state
trial court, contending that his trial counsel was ineffective for
failing to interview Josh and Nancy before trial and present
their testimony.2 The court held art evidentiary hearing, at
which Josh, Nancy, and Gage's trial counsel testified.
Josh testified that when he and H.R.G. stayed at Nancy's
house, he would usually sleep on the pullout couch or in the
bedroom. Gage would typically sleep in a recliner or in the
bedroom, and H.R.G. would usually sleep on the couch. Josh
did not remember H.R.G. sleeping in the bedroom, but stated
it was possible that she slept there a few times. Gage usually
fell asleep first, followed by H.R.G., and Josh would stay up
the latest—-usually falling asleep between one and three in the
morning. Josh also testified that sound traveled in the cabin,
and the ladder leading to the loft was creaky. He never saw
Gage touch his sister in a sexual way.
Nancy testified that she believed H.R.G. and Gage had a
normal father-daughter relationship, and she did not witness
any changes in their relationship. She had a sewing room in
the basement, which she accessed by walking through the
basement living room. She sometimes used her sewing ma­
chine in the evenings, as late as 11 at night. She had offered
H.R.G. the upstairs bedroom at her house, but H.R.G. had de­
clined because she wanted to stay by Josh.

2 Gage also attacked several other aspects of his trial and sentencing,
but those issues are not relevant to this appeal and so we will not discuss
them further.

V

}

Case: 19-2002

No. 19-2002

Document: 36

Filed: 10/21/2020

Pages: 14

5

Gage's trial counsel testified that he did not interview Josh
or Nancy. He ultimately did not think that their testimony
would bolster Gage's defense.
The trial court determined that defense counsel's perfor­
mance was not deficient, and so Gage could not satisfy the
demanding standard of Strickland v. Washington, 466 U.S. 668
(1984). The Wisconsin Court of Appeals affirmed the denial of
Gage's postconviction motion. State v. Gage, 365 Wis. 2d 606
(Wis. Ct. App. 2015) (per curiam). It noted that a "claim of in­
effective assistance of counsel has two parts: (1) deficient per­
formance by counsel and (2) prejudice resulting from that de.fident performance." Id. *110. To prove prejudice, the defend­
ant must show "that the attorney's errors rendered the result­
ing conviction unreliable in light of the other evidence pre­
sented." Id.
Without reaching the performance prong, the Wisconsin
Court of Appeals conduded that Gage had not shown that his
trial counsel's failure to call Josh or Nancy as witnesses prej­
udiced him. The court noted that Josh's and Nancy's testi­
mony was consistent with H.R.G.'s "about the layout of the
basement and general sleeping arrangements." Id. 1 11. For
example, Josh's "testimony that he 'usually' slept on the
couch and sometimes slept in the bedroom [did] not contra­
dict the victim's testimony that each of the siblings sometimes
slept in the bedroom and sometimes slept on the sectional
couch with the pullout bed in the living room area." Id. Simi­
larly, Josh's testimony the he "was generally the last person to
go to bed and that he never witnessed any sexual conduct"
between Gage and H.R.G. "does not undermine the victim's
account that the inddents would occur after everyone had
gone to sleep." Id: As for Nancy, her testimony "that she did

Case: 19-2002

6

Document: 36

Filed: 10/21/2020

Pages: 14

No. 19-2002

not generally go into ‘the basement at night was consistent
with the victim's testimony" and did not show that she
"would have been in position to witness any of the alleged
incidents." Id. Ultimately, the court concluded that it did "not
view the additional testimony that the victim's brother or
Gage's mother could have provided as undermining the vic­
tim's account in any significant way." Id. *1 13. Gage appealed,
and the Wisconsin Supreme Court denied his petition for re­
view.
Proceeding pro se, Gage then filed a petition for a writ of
habeas-’corpus under 28 U.S.C. § 2254 in the United States Dis­
trict Court for the Western District of Wisconsin, contending
that his trial counsel was ineffective for failing to call Josh and
Nancy as witnesses. To succeed on this claim, under Strick­
land, Gage needed to show both that his counsel's perfor­
mance:,was deficient and that he was prejudiced as a result.
• 466 U.S. at 687. The district court agreed with Gage that his
trial counsel performed deficiently by failing to interview
Josh and Nancy. Gage v. Richardson ("Gage IT"), No. 16-cv-849,
2019 WL 1900338, at *7-8 (W.D. Wis. Apr. 29, 2019).
The district court, however, denied habeas relief on the
prejudice prong. Applying the deferential standard of review
required by the Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA), it determined that the state appellate court
did not apply Strickland "unreasonably in concluding that
Gage had not shown prejudice." Id. at *8. It noted that "the
court of appeals failed to discuss some noteworthy statements
in Josh's and Nancy's proffered testimony," such as the fact
that "they never witnessed any sexual touching or unusual
behavior between Gage and H.R.G." Id. Nonetheless, the dis­
trict court determined that "the remainder of the state court's

}

Case: 19-2002

Document: 36

Filed: 10/21/2020

No. 19-2002

Pages: 14

7

analysis is sufficient to assure [the district court] that the
court's prejudice analysis is not 'unreasonable' and is at least
a 'plausible outcome.'" Id. (quoting Carter v. Duncan, 819 F.3d
931, 948 (7th Qr. 2016)). Specifically, the state appellate
court's conclusion that Josh's and Nancy's testimony was gen­
erally consistent with H.R.G.'s testimony and did not under­
mine her account was reasonable because they "confirmed
H.R.G.'s description of the various residences and of the gen­
eral sleeping arrangements." Id. Further, H.R.G. had already
admitted to many aspects of their testimony during cross-ex­
amination, like the fact that "Josh could have heard the as­
saults or walked in the room at any time during the assaults"
and "she had declined her grandmother's offer of a bedroom
upstairs because she wanted to be near Josh." Id. at *3. Given
that "the most significant import of Josh's and Nancy's testi­
mony—that neither witness saw or heard anything that
would have indicated to them that Gage was sexually assault­
ing H.R.G.—had minimal evidentiary value in light of the
state's theory that Gage was calculating, manipulative, and
assaulted H.R.G. only after Josh and Nancy were asleep in
separate rooms," the district court concluded that "it was rea­
sonable for the court of appeals to conclude that the likelihood
of a different result was not substantial." Id. at *9.
■
II. Discussion
On appeal, Gage maintains that he received ineffective as­
sistance of counsel. Under Strickland, he must show both that
his counsel's performance was deficient and that he was prej- ‘
udiced as a result. 466 U.S. at 687. Typically, "[i]n considering
habeas corpus petitions challenging state court convictions,
our review is governed (and greatly limited) by AEDPA."
Dassey v. Dittmann, 877 F.3d 297, 301 (7th Cir. 2017) (en banc)

?

Case: 19-2002

Document: 36

8

Filed: 10/21/2020

Pages: 14

No. 19-2002

(internal quotation marks and citation, omitted). Gage con­
tends that we do not owe AEDPA deference here. Even if it
applies, Gage argues the state appellate court unreasonably
applied Strickland's prejudice prong, entitling him to habeas
relief.
As explained below, Gage's arguments fail. AEDPA defer­
ence applies, and the Wisconsin Court of Appeals did not un­
reasonably apply Strickland's prejudice prong to the facts of
this case. Given that Gage is only entitled to habeas relief if he
satisfies both of Strickland's prongs, we decline to analyze
whether his trial counsel's performance was deficient and in­
stead focus solely on the prejudice prong. Morales v. Johnson,
659 F.3d 588, 600 (7th Cir. 2011) ("We need not address both
prongs of the Strickland analysis.").
A. Deference Under AEDPA
Generally, habeas claims arising from state courts are gov­
erned by AEDPA, under which "a federal court may grant ha­
beas relief after a state-court adjudication on the merits only
when that decision (1) 'was contrary to, or involved an unrea­
sonable application of, clearly established Federal law, as de­
termined by the Supreme Court of the United States;' or (2)
'was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.'"
Schmidt v. Foster, 911 F.3d 469,476-77 (7th Cir. 2018) (en banc)
(quoting 28 U.S.C. §§ 2254(d)(1), (2)).
Gage argues that we should not apply AEDPA deference
for two reasons: first, because the state appellate court mis­
stated and misapplied Strickland's prejudice standard, and
second, because it based its decision on an unreasonable de­
termination of the facts.

Case: 19-2002

No. 19-2002

Document: 36

Filed: 10/21/2020

Pages: 14

9

As an initial matter, the state contends that Gage forfeited
these challenges because he did not raise these issues before
the district court. "A party generally forfeits issues and argu­
ments raised for the first time on appeal." Scheidler v. Indiana,
914 F.3d 535,540 (7th Cir. 2019). While "we have discretion to
decide issues of law not argued in the district court ... that
discretion should be used sparingly." In re Sw. Airlines
Voucher Litig., 799 F.3d 701, 714 (7th Cir. 2015). Gage contends
that we should exercise this discretion because he was pro se,
the issues are fully briefed, and it is in the interests of justice.
Nonetheless, even if we considered the merits of Gage's chal­
lenges to AEDPA deference, they fail.
First, Gage takes issue with the Wisconsin Court of Ap­
peals' formulation of Strickland's prejudice standard. Under
Strickland, the prejudice prong requires the petitioner to "af­
firmatively prove prejudice," such that "there is a reasonable
probability that, but for couhsel's unprofessional errors, the
result of the proceeding would have been different." 466 U.S.
at 694. "A reasonable probability is a probability sufficient to
undermine confidence in the outcome." Id. The Wisconsin
Court of Appeals stated that to prove prejudice, a defendant
must "show that the attorney's errors rendered the resulting
conviction unreliable in light of the other evidence presented."
Gage 1,365 Wis. 2d at f 10 (emphasis added). The parties agree
that this misstates Strickland but disagree about whether the
state appellate court's analysis nonetheless reflects a correct
application of the prejudice standard.
When a state court misstates Strickland's prejudice prong,
AEDPA deference may still apply if its analysis "focused on
whether the proffered testimony could have affected the out­
come, which is the correct inquiry under Strickland." Carter,

Case: 19-2002

10

Document: 36

Filed: 10/21/2020

Pages: 14

No. 19-2002

819 F.3d at 944; Sussman v. Jenkins, 636 F.3d 329, 360 (7th Cir.
2011). This is true even when the incorrect recitation seem­
ingly places an additional burden on the petitioner. Carter, 819
F.3d at 944. In Carter, for example, the state court incorrectly
recited the prejudice standard as requiring the defendant to
show the result of the proceeding was unreliable or funda­
mentally unfair. Id. We nonetheless applied AEDPA deference
to the state court's determination that prejudice was lacking
because "its analysis focused on the probable impact of the
proffered testimony on the outcome." Id. at 945; see also Floyd
v. Hanks, 364 F.3d 847, 852-53 (7th Cir. 2004) (state court's rec­
itation that "when errors do not make the result of the trial
unreliable, they do not cause prejudice" did not render the
decision of the state court contrary to Strickland where the "ac­
tual analysis of Floyd's counsel's conduct properly consid­
ered whether the counsel's actions affected the outcome of the
trial").
Here, the state court's analysis focused'on the consistency
between Josh's and Nancy's testimony at the postconviction
hearing and H.R.G.'s testimony at trial, which can reasonably
be interpreted as "whether the proffered testimony could
have affected the outcome," or its likely impact on the verdict.
See Carter, 819 F.3d at 944. The state court noted that Josh's '
and Nancy's testimony did not undermine H.R.G.'s testi­
mony in any significant way. Thus, despite the incorrect reci­
tation of the prejudice standard, the state court's decision is
not "contrary to" Strickland.
Second, Gage contends that the Wisconsin Court of Ap­
peals based its decision on an unreasonable determination of
the facts. See § 2254(d)(2). A state court's decision involves an
unreasonable determination of the facts if it "rests upon fact-

Case: 19-2002

No. 19-2002

Document: 36

Filed: 10/21/2020

Pages: 14

11

finding that ignores the clear and convincing weight of the
evidence." Corcoran v. Neal, 783 F.3d 676, 683 (7th Cir. 2015)
(quoting McManus v. Neal, 779 F.3d 634, 649 (7th Cir. 2015)).
In particular, Gage criticizes how the state appellate court
characterized Josh's testimony about the sleeping arrange­
ments in the basement when it stated that "the brother's testi­
mony that he 'usually' slept on the couch and sometimes slept
in the bedroom does not contradict the victim's testimony that
each of the siblings sometimes slept in the bedroom and
sometimes slept on the sectional couch with the pullout bed
in the living room area." Gage I, 365 Wis. 2d at 1 11. Gage
claims this summary misstates Josh's testimony because he
testified that H.R.G. usually slept on the couch—and while it
was possible she slept in the bedroom a few times, he did not
specifically remember her doing so.
While the state court's finding that Josh and H.R.G. both
testified that they "usually slept on the couch and sometimes
in the bedroom" may not have been correct, it was not an un­
reasonable interpretation of the testimony. See Collins v. Gaetz,
612 F.3d 574,586 (7th Cir. 2010) (under the "unreasonable de­
termination of the facts" standard, "a state court's factual
finding is never unreasonable 'merely because the federal ha­
beas court would have reached a different conclusion in the
first instance'"). Gage disagrees with the state court's charac­
terization of how consistent Josh's testimony about the sleep­
ing arrangements was with H.R.G.'s. But the state court's de­
scription of the testimony was not unreasonable because both
Josh and H.R.G. testified that they slept either on the bed or
on the couch, and Josh acknowledged it was possible that
H.R.G. slept in the bedroom a few times. Thus, the state
court's determination that Josh's testimony did not contradict

Case: 19-2002

Document: 36

Filed: 10/21/2020

12

Pages: 14

No. 19-2002

H.R.G/s does not ignore the clear and convincing weight of
the evidence.
Because Gage's challenges fail, we analyze the state appel­
late court's decision under the deferential standard set forth
in AEDPA.
B. Strickland's Prejudice Standard
"The standard for legal errors under § 2254(d)(1) was
meant to be difficult to satisfy." Dassey, 877 F.3d at 302. The
issue is not whether we "agree with the state court decision or
even whether the state court decision was correct," itJ is
"whether the decision was unreasonably wrong under an ob­
jective standard." Id. When'the state court '"explains its dedsion on the merits in a reasoned opinion,' .this presents a
'straightforward inquiry' for the federal habeas court." Lentz
v. Kennedy, 967 F.3d 675,688 (7[th Cir. 2020) (quoting Wilson
Sellers, 138 S. Ct. 1188,1192 (2018)). Here, theWisconsin Court
of Appeals was the last reasoned1 decision on' the’ merits, and
"thus we focus on that dedsion and 'simply review[] the spe­
cific reasons given by the state court and defer[] to those rea­
sons if they are reasonable." Id. (quoting Wilson, 138 S. Ct. at
1192). Habeas relief is only warranted if the petitioner shows
that the state court's determination "was so lacking in justifi­
cation that there was an error well understood and compre­
hended in existing law beyond any possibility for fairminded
disagreement." Harrington v. Richter, 562 U.S. 86, 103 (2011).
Given this narrow and exacting standard of review, we con­
clude that the Wisconsin Court of Appeals did not unreason­
ably apply Strickland's prejudice prong.
-

*'

«r>4

The state appellate court determined that Gage had not
shown prejudice from his trial counsel's failure to call Josh

N>

Case: 19-2002

No. 19-2002

Document: 36,

Filed: 10/21/2020

Pages: 14

13

and Nancy as witnesses because their testimony was largely
consistent' with H.R.G/S—meaning it did not significantly un­
dermine her account of the sexual assaults. Thus, there was
not a reasonable probability of a different outcome had they
testified. As the district court noted, the state appellate court's
analysis of the issue was brief and failed to discuss some of
Josh's and Nancy's statements in their proffered testimony.
Their testimony that "they never witnessed any sexual touch­
ing or unusual behavior between Gage and H.R.G.," for ex­
ample, "would have made H.R.G.'s testimony at trial that
Gage sexually assaulted her 'almost every time [she] visited'
at least somewhat doubtful," given Josh's proximity to her in
all three locations. Gage II, 2019 WL1900338, at *8.
Nonetheless, the state appellate court "provided a terse
but sufficient explanation" for why Josh's and Nancy's testi­
mony did not significantly undermine H.R.G.'s. See Dassey,
877 F.3d at 312-14 (noting that the "relative brevity" of the
state appellate court opinion was "not a reason for granting
habeas relief"). Much of their testimony corroborated
H.R.G.'s version of events: nearly all the points Nancy and
Josh conveyed in the postconviction hearing came out during
H.R.G.'s cross-examination. H.R.G., for example, testified that
Josh was always nearby when the assaults occurred, Nancy
could easily access the basement sewing room, she had de­
clined Nancy's offer to sleep in the upstairs bedroom, and
sound traveled in the cabin. And while Josh and Nancy testi­
fied that they did not witness any of the assaults, this fact
alone does not suggest a reasonable probability that the jury
would have disbelieved H.R.G. given that she testified the as­
saults occurred after everyone went to sleep. Thus, Josh's and
Nancy's testimony not only failed to undermine much of
H.R.G.'s testimony, it—in many cases—corroborated it.

Case: 19-2002

Document: 36

Filed: 10/21/2020

14

Pages: 14

No. 19-2002

Further, while Josh's testimony that he could not remember
H.R.G. sleeping in the basement bedroom potentially under­
mined her account of the first assault—which she testified
happened when she was sleeping in the bedroom—Gage was
ultimately acquitted of that charge.
There is of course a chance the additional testimony could
have changed the jury's mind. Given this case rested on the '
jury's determination of the credibility of the witnesses, fairminded jurists may well disagree over the extent to which
Josh's and Nancy's testimony was consistent with H.R.G.'s.
But without any directly contradictory testimony, it was rea­
sonable for the Wisconsin appellate court to conclude there
was not a reasonable probability of a different outcome had
they testified.
III. Conclusion
The Wisconsin Court of Appeals did not unreasonably ap­
ply Strickland when it concluded there was not a reasonable
probability of a different outcome had Josh and Nancy testi­
fied, so the district court's denial of habeas relief is
AFFIRMED.

' i

IN THE UNITED STATES DISTRICT-COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

PATRICK J. GAGE,
Petitioner,
v.

OPINION and ORDER
16-cv-849-jdp

WARDEN RICHARDSON,
Respondent.

Petitioner Patrick J. Gage was .convicted, after a jury trial, of two counts of first-degree
sexual assault of a child and one count of second-degree sexual assault of a child. State v. Gage,
Case No. 2009CF89 (Juneau County). He was sentenced to 33 years of imprisonment to be
followed by 21 years of extended supervision. Gage filed an unsuccessful motion for
postconviction relief in the trial court and a direct appeal. The court of appeals rejected Gage’s
■ arguments and the Wisconsin Supreme Court denied his petition for review.
Gage now seeks a writ of habeas corpus under 28 U.S.C. § 2254, challenging both his
conviction and his sentence for various reasons. The state filed an answer, with records from
the relevant state court proceedings, and the motion is fully briefed. For the reasons set forth
below, I conclude that Gage has failed to establish that the Wisconsin Court of Appeals
unreasonably applied clearly established federal law when it rejected his claims and affirmed
his conviction. Accordingly, his petition will be denied.

BACKGROUND
The following facts are taken from the petition and the state court records provided by
Gage and the state.

Appendix B

A. Gage’s arrest and trial
In Juneau County Case No. 2009CF89, Gage was charged with six counts of sexual
assault. Four of the counts related to his daughter, FI.R.G., while FI.R.G. was still a child. The*
first two counts were alleged to have taken place at H.R.G.’s grandmother’s (Gage’s mother’s)
house between spring 2001 and May 2004, when H.R.G. was between nine and 12 years old.
The third count was alleged to have taken place in a cabin that was built behind the
grandmother’s house when H.R.G. was 12 years old. The fourth count was alleged to have
occurred at a house where Gage lived in Lyndon, Wisconsin, when H.R.G. was younger than
16 years old. The other two counts charged Gage with repeated sexual assault of A.L.P., the
daughter of Gage’s former girlfriend.
Pending trial, Gage was out on a signature bond and was permitted to live in the
Cayman Islands. Without notifying his lawyer or the court, he moved to his new wife’s home
country, Canada. He subsequently failed to appear for a mandatory court appearance and was
later featured on an episode of the television show “America’s Most Wanted.” He was
ultimately found and brought back to the United States to face trial. (He was charged with bail
jumping, but that charge was later dismissed after he was sentenced in the sexual assault case.)
The television show provided a plaque commemorating Gage’s capture that was displayed in
the Juneau County courthouse. The plaque included the America’s Most Wanted logo and the
words “Capture 1121 Patrick Gage,” in small print at the bottom of the plaque.
Gage proceeded to a three-day jury trial in November 2011. The state called six
witnesses: H.R.G., H.R.G.’s mother, A.L.P., AL.P.’s mother, and two detectives. Gage was the
only witness who testified on his behalf.

2

H.R.G. testified that she and her older brother, Josh, visited their dad, Gage, at her
grandmother’s house on weekends, one day during the week, and sometimes for entire
summers. She, Josh, and Gage slept in the basement of her grandmother’s house. Dkt. 10-13
at 233-34. The basement consisted of a living room, a bedroom, and a sewing room. Id.
H.R.G.’s grandmother had offered H.R.G. a bedroom upstairs, but H.R.G. chose to sleep
downstairs with Josh and Gage. Id. at 243-46. H.R.G. testified that her dad was asleep usually
before she or Josh fell asleep. Id. at 247.
H.R.G. testified that Gage sexually assaulted her at her grandmother’s house “almost
every time [she] visited,” and that she could not specify an exact number of assaults because
they happened “so frequently.” Dkt. 1‘0-13 at 196. The first incident that she could remember,
and which was the basis for count 1, occurred downstairs in the bedroom at her grandmother’s
house, after everyone had gone to sleep. Id. at 196-97. H.R.G. said that she was sleeping in a
bed with her dad and he started touching her breasts over her clothes and then tried to put his
penis in her mouth. M at 199-200. H.R.G. testified that she rolled away from him and that
they both went back to sleep without saying anything to each other. Id. at 201. H.R.G.’s
«
brother, Josh, was asleep on the couch in the adjacent living room about 10 feet away at the
time. Id. at 233. On cross-examination, H.R.G. testified that the first time she told anyone the
details of this assault was in preparation for trial because she had not remembered the details
before that. Id. at 236-37.
H.R.G. testified that the second assault (count 2) occurred at her grandmother’s house
during the summer of 2001. Id. at 204. That time, Gage assaulted her while they were sleeping
on the pullout couch in the living room downstairs, while her brother Josh was in the adjacent

3

bedroom. Id. at 201. H.R.G. agreed on cross-examination that her brother or grandmother
could have walked into the room at any time during the assault. Id. at 240.
H.R.G. testified that the third assault (count 3) took place at a cabin on her
grandmother’s property where she, Josh, and Gage lived for a summer. Id: at 205-06. The cabin
had a bedroom, where Josh slept, a loft, where H.R.G. slept, and a living roo'm, where Gage •
slept. H.R.G. testified that while Josh was in the bedroom, Gage climbed the ladder up to the
loft area and assaulted her. Id. at 208, 242. Gage stopped when she started to cry and then
they played video games. Id. at-211-12. H.R.G. agreed on cross-examination that sound
traveled throughout the cabin. Id. at 243.
The fourth assault (count 4) occurred at a small house in Lyndon, Wisconsin. H.R.G.
testified that Josh was asleep in the bedroom adjacent to the living room, when Gage came
home late, sat on the couch, and began touching her vagina over her clothes. Id. at 222-23.
H.R.G. kicked Gage and he stopped touching her. Id. H.R.G. agreed on cross-examination that
the house was small and that if someone had walked out of the bedroom, that person would
have seen whatever was happening on the couch. Id. at 265-66.
H.R.G. also testified that she had seen what she thought was Gage touching the other
victim, A.L.P. while Gage and A.L.P. were lying on a couch. Id. at 216.
Defense counsel’s strategy was to question H.R.G.’s credibility. Counsel pointed out
that there was no physical evidence or witnesses to corroborate H.R.G.’s testimony that Gage
had assaulted her. Counsel argued that H.R.G.’s lack of detail cast doubt on her allegations, as
did the lack of privacy in the houses in which H.R.G. said that she had been assaulted. Dkt.
10-15 at 156, 162-64, 166, 184. In his closing arguments, defense counsel pointed to Josh’s
proximity to the assaults and to the fact that either Josh or H.R.G.’s grandmother could have
4

walked in at any moment. Defense counsel also questioned why the state had not called either
Josh or the grandmother as a witness. Id. at 179-80.
In his rebuttal closing, the prosecutor countered that the defense could have called Josh
as a witness. The prosecutor argued, “If Patrick Gage wanted his son to testify, he could have
brought him here. . . He could have called his own son. Maybe it’s because Josh had nothing
to say.” Id. at 205.
The jury found Gage not guilty of the first count of sexual assault involving H.R.G.' and
not guilty on both counts of sexual assault involving A.L.P. The jury convicted Gage on counts
2, 3, and 4 relating to H.R.G.
B. Sentencing
Gage’s presentence investigation report placed Gage in the lowest risk categories for.
both general recidivism and violence under the COMPAS actuarial assessment tool. But the
presentence investigation agent stated that no actuarial instruments focusing on the risk of sex
offense recidivism had been administered and that such risk assessments could be helpful. The
agent then discussed Gage’s history, including that Canadian authorities had dropped other
charges of sexual abuse involving the niece of Gage’s current wife when Gage was extradited,
that Gage’s younger sister had alleged that Gage had touched her sexually when she was
between the ages of 12 and 14, and that Gage’s ex-wife had alleged that he was emotionally
abusive, verbally abusive, manipulative, controlling, and had insisted that she engage in
unwanted sexual acts. Finally, the agent noted that Gage denied any sexual abuse of the victim,
sister, and ex-wife, and Gage had given no opinion as to why the daughter of his former
girlfriend and niece of his current wife would accuse him of sexual assault. The agent concluded

5

that Gage’s denial was an “aggravating factor,” and that those in denial “are at higher risk, and
are not amenable to treatment-” Dkt. 10-10 at 11.
At the sentencing hearing in January 2012, the prosecutor and defense counsel made
arguments about the presentence investigation report and the COMPAS assessment in
particular. The judge noted that he was not giving the assessment much weight because he
thought Gage’s continued denial of wrongdoing and his moving to Canada without notifying
the court showed that Gage needed extensive supervision. Dkt. 10-16 at 79. The judge also
stated that Gage had moved to Canada likely to avoid prosecution. Id. at 67, 71. The judge
ultimately sentenced Gage to 33 years of imprisonment to be followed by 21 years of extended
supervision.
C. Postconviction motion and evidentiary hearing
Gage filed a postconviction motion contending that: (1) trial counsel was ineffective by
failing to (a) interview and present evidence from Josh Gage, (b) interview and present evidence
from Nancy Gage (Gage’s mother), (c) seek removal of the America’s Most Wanted plaque
commemorating Gage’s arrest; (2) Gage’s sentence should be modified because (a) of new
information regarding his likelihood of sex offense recidivism, (b) the court put undue weight
on his missing a court appearance after he had moved to Canada, and (c) his sentence was
un duly harsh. The circuit court held an evidentiary hearing on the motion at which Josh Gage,
Nancy Gage, and Gage’s trial counsel testified.
1. Josh Gage’s testimony
Josh Gage is one-and-a-half years older than H.R.G. Dkt. 10-17 at 59. For the most
part, Josh’s testimony at the postconviction hearing was consistent with H.R.G.’s testimony at
trial. He testified that he and H.R.G. visited their father every other weekend, one day during
6

the week, and most of the summer. Id. Josh’s description of his grandmother’s house was
consistent with H.R.G.’s and Gage’s description of the house at trial. Josh testified that he,
, H.R.G., and Gage slept in the basement, which consisted of a living room, small bedroom, and
his grandmother’s sewing room. Id. at 61—62. Josh testified that H.R.G. usually slept in one
corner of a large L-shaped couch in the living room of the basement and that he usually slept
on the pullout bed portion of the couch, but occasionally slept in the bedroom. Id. at 63. Josh
testified that he did not^remember H.R.G. sleeping in the bedroom, which is where H.R.G.
testified that count 1 took place, though Josh agreed that it was possible that she slept in the
bedroom a few times. Id. at 79.
Josh also testified that Gage would usually fall asleep in a recliner by 8 p.m. Id. at 65.
Josh would sometimes try to move Gage into the bedroom, but that he would sometimes just
leave Gage in the recliner. Josh stayed up late playing video games or watching movies, and he
did not go to sleep until between 1 a.m. and 3 a.m. on most nights. Id. at 64. He was usually
the last to go to sleep and would turn off the television and lights. Id. at 67.
As for the cabin, where H.R.G. testified that count 3 took place, Josh testified that he
and H.R.G. helped Gage build the cabin and that it was an enjoyable experience. Id. at 68. Josh
described the cabin as small and testified that sound traveled through it. Id. at 69. He also
testified that the loft where H.R.G. slept was directly above his bedroom and that the ladder
up to the loft made a “creaky noise” when someone climbed it. Id. at 70. Josh testified that he
stayed up the latest in the cabin, just as he had when he and H.R.G. had slept inside his
grandmother’s house. Id.
Josh also lived with H.R.G. and Gage at the house in Lyndon, where count 4 occurred.
Josh testified that the Lyndon house was a little bit bigger than the cabin, with one bedroom,

7

a living room, and a bathroom. Id. at 71. Josh testified that, as in their other residences, Gage
went to sleep early, followed by H.R.G., then Josh. Id.
Josh testified that he never saw Gage touch H.R.G. in a sexual way. Id. at 66. He also
testified that after Gage was charged with assaulting H.R.G., he and Gage did not have much
of a relationship. Id. at 75. He-spoke with him only twice between the time Gage was arrested
and his trial. Id.
2. Nancy Gage’s testimony
Nancy Gage, Gage’s mother and H.R.G.’s grandmother, testified at the postconviction
hearing that she believed Gage and H.R.G. had a normal father-daughter relationship and that
she never witnessed any change in their relationship during the time H.R.G. and Josh lived at
her house. Id. at 89. Nancy testified that she was the primary caregiver for the children while
they were visiting and Gage was working, that she had a close relationship with H.R.G., and
that she talked with H.R.G. regularly. Id. Nancy testified that she routinely stayed up late,
until around 11 p.m., and would use her sewing room in the basement in the evenings. Id. at
91: To access her sewing room, Nancy walked through the living room in the basement where
H.R.G., Gage, and Josh stayed. Id. at 90. She also testified that from the top of the basement
stairs, she could hear conversations in the living area of the basement. Id.
3. Trial counsel’s testimony
Trial counsel testified at the hearing that he did not interview either Josh or Nancy
before trial. Id. at 15, 23. He testified that before trial, he knew that Josh was usually with
H.R.G. when she visited Gage, that Josh slept in the same immediate area as H.R.G., and that
Josh had told police that he never saw anything sexual between Gage and H.R.G. Id. at 20-22.
But trial counsel was under the impression that Josh and Gage did not have a good relationship,
8

that Josh was upset with Gage, that Josh and Gage had not maintained communication prior,
to the trial, and that Josh had told police that H.R.G. had not hung around Gage much while
she visited him in the Cayman Islands. Id. at 22. Counsel also testified that he had received
information before trial that Josh may have assisted law enforcement in trying to locate Gage
when he was in Canada. Id. at 34. Counsel testified that he weighed his concerns that Josh may
be a hostile witness with Josh’s potential testimony, and concluded that Josh was not a “viable
witness” and that his testimony would have “very limited value.” Id. at 53-54
As for Nancy Gage, trial counsel testified that before trial, he believed Nancy was “the
only witness that really had substantive or potentially substantive material.” Id. at 14. Trial
counsel listed Nancy as a witness on his witness list. However, counsel chose not to interview
her or call her as a witness because he believed that she would have testified that she never saw
any suspicious interactions between Gage and H.R.G., and “that’s what one would expect one’s
mother to say.” Id. at 43-44.
Finally, trial counsel testified that he did not file a motion to remove the America’s
Most Wanted plaque because he thought filing a motion would bring unnecessary attention to
the plaque and also because he did not think any jurors would notice it. Id. at 28-29.
4. Circuit court’s decision
The circuit court made an oral ruling denying Gage’s postconviction motion in its
entirety. The court first addressed the America’s Most Wanted plaque, concluding that Gage
had not shown that he was prejudiced by trial counsel’s failure to request removal of the plaque.
Dkt. 10-18 at 11, In particular, the court noted that Gage had not shown that any juror ever
noticed the plaque or that it affected the jury’s judgment in any way. Id. at 12.

9

As for counsel’s failure to interview or call Josh and Nancy Gage as witnesses, the trial
court recognized that “in this case, credibility was in almost everything. . . It is, as it was
phrased, a ‘he-said-she-said’ type of case. And so the impeachment or undermining of the
credibility of [H.R.G.] would have been of great significance.” Id. at 13. However, the trial
court concluded that counsel exercised reasonable defense strategy by declining to interview or
call Josh based on counsel’s belief that Josh and Gage were estranged and that Josh would be
on H.R.G.’s side. Id. at 16. As for Nancy, the trial court stated that “Nancy’s testimony, if
believed by the jury, would have undermined the credibility of [H.R.G],” but that the court
accepted that “a jury might discount her testimony as being a loving mother supportive of her
son.” Id. at 18.
The circuit court also rejected Gage’s request for a sentence modification based on new
information. After Gage was sentenced, he had hired a clinical psychologist to conduct a
psychosexual evaluation. The psychologist concluded that Gage had no major mental illness,
evaluated psychopathy, or sexual deviance, and was at low risk for future sexual offending. The
psychologist noted specifically that “within the area of sex offender risk assessment, denial is
not a risk factor associated with increased recidivism risk.” Dkt. 10-10 at 12. The court rejected
Gage’s argument that his sentence should be modified based on the new information contained
in the evaluation, concluding that the evaluation did not qualified as new information that
would justify reconsidering Gage’s sentence. Dkt. 10-18 at 20, 22.
Finally, the circuit court rejected Gage’s argument that the court had placed too much
weight on Gage missing a court appearance after he moved to Canada. The'court noted that
the missed appearance was only one factor it had considered in deciding on a sentence. Id. at
26. The court further explained that the lengthy sentence was motivated primarily by the
10

sentencing judge’s intention that Gage remain in prison until his sexual desires toward his
daughter would have “faded.” Id. at 32.
D. Wisconsin Court of Appeals’ decision
The Wisconsin Court of Appeals affirmed the circuit court’s denial of Gage’s
postconviction motion. Dkt. 10-10. The court of appeals concluded that Gage had failed to
show that he was prejudiced by counsel’s failure to call Josh or Nancy Gage as witnesses. The
court noted that Josh’s and Nancy’s testimony was consistent with H.R.G.’s trial testimony
regarding the layout of the basement and the general sleeping arrangements. Id. at 9. Josh’s
testimony that he “‘usually’ slept on the couch and sometimes slept in the bedroom [did] not
contradict the victim’s testimony that each of the siblings sometimes slept in the bedroom and
' sometimes slept on the sectional couch with the pullout bed in the living room area.” Id.
Similarly, Josh’s testimony that he was “generally the last person to go to bed” and that he
“never witnessed any sexual conduct between Gage and his sister” did not undermine the
‘victim’s account that the incidents would occur after everyone had gone to sleep. Id. The court
stated that “the implication of the victim’s testimony was that Gage would approach her late
at night after she and her brother had gone to bed, sometimes waking her up.” Id. (emphasis in
original). As for Nancy Gage, the court of appeals stated that her testimony that “she did not
generally go into the basement at night was consistent with the victim’s testimony and did not
show that Gage’s mother would have been in position to witness any of the alleged incidents.” .
Id. The court concluded that it did not “view the additional testimony that the victim’s brother
or Gage’s mother could have provided as undermining the victim’s account in any significant
way.” Id. at 10.

11

•

The court of appeals rejected Gage’s claim based on counsel’s failure to object to the
America’s Most Wanted plaque because Gage had “failed to show that any juror had seen the
plaque, must less noticed Gage’s name on it.” Id. at-9.
Finally, the court of appeals denied Gage’s requests for sentence modification,
concluding that Gage had failed to show that a post-sentencing psychosexual evaluation
qualified as a “new sentencing factor” that justified resentencing-or that the sentencing court
had placed undue weight on his failure to notify anyone about his move to Canada or his failure
to appear at a mandatory court hearing after his move. Id. at 13-14.
Gage appealed, and the Wisconsin Supreme Court denied his petition for review. He
filed his habeas petition in this court on December 27, 2016.

ANALYSIS
In his habeas petition, Gage seeks relief on the grounds that: (1) trial counsel was
ineffective for failing to interview and call as witnesses his son, Josh Gage, and his mother,
Nancy Gage; (2) trial counsel was ineffective for failing to file a motion to have the court
remove the plaque in the courthouse lobby congratulating the county sheriff on arresting Gage;
(3) the trial court relied on in accurate information at sentencing to conclude that Gage was a
sex offender “in denial” with a high risk of recidivism, despite a later psychosexual evaluation
showing that Gage was at a low risk of recidivism; and (4) the trial court erred at sentencing
by placing undue weight on Gage missing a court appearance in 2010 and believing incorrectly
that Gage had attempted to flee prosecution by moving to Canada.
Because the Wisconsin Court of Appeals addressed the merits of Gage’s claims, my
review is subject to the deferential standard of review under 28 U.S.C. § 2254(d)(1). Under

12

§ 2254(d)( 1), Gage is not entitled to relief unless he shows that the state court’s decision was
“contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court.” A decision is “contrary to” clearly established federal law
“if the rule the decision applies differs from governing law set forth in Supreme Court cases.”
Bailey v. Lemke, 735 F.3d 945, 949-50 (7th Cir. 2013) (citations omitted). A decision involves
an “unreasonable application” of Supreme Court precedent “if the decision, while identifying
the correct governing rule of law, applies it unreasonably to the facts of the case.” Id.
Alternatively, Gage can obtain relief if he shows that the state court’s adjudication of
his claims was based upon an unreasonable determination of the facts in light of the evidence
presented. 28 U.S.C. § 2254(d)(2). But again, the federal court owes deference to the state
court. The underlying state court findings of fact and credibility determinations against a
petitioner are presumed correct unless the petitioner comes forth with clear and convincing
evidence to the contrary. 28 U.S.C. § 2254(e)(1); Campbell v. Smith, 770 F.3d 540, 546 (7th
Cir. 2014); Newman v. Harrington, 726 F.3d 921, 928 (7th Cir. 2013).
A. Ineffective assistance of trial counsel
Claims for ineffective assistance of counsel are analyzed under the well-established
standard set forth in Strickland v. Washington, 466 U.S. 668 (1984). To prevail under the
Strickland standard, a defendant must demonstrate both constitutionally deficient performance
by counsel and actual prejudice as a result of the alleged deficiency. Williams v. Taylor, 529
U.S. 362, 390-91 (2000). To demonstrate deficient performance, the petitioner must show
“that counsel’s representation fell below an objective standard of reasonableness.” Strickland,
466 U.S. at 687-88. To demonstrate actual prejudice requires a defendant to demonstrate “a

13

reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694.
1. Failure to interview and call Josh Gage and Nancy Gage as witnesses

*

Gage contends that the Wisconsin Court of Appeals applied Strickland unreasonably
when it rejected his ineffective assistance claim based on his trial counsel’s failure to interview
or call Josh Gage and Nancy Gage as witnesses. To prevail on this claim, Gage faces a heavy
burden: when Strickland’s deferential standard for measuring attorney performance is viewed
through the lens the deferential standard in § 2254(d), the result is a doubly deferential form
of review that asks only “whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.” Hanington v. Richter, 562 U.S. 86, 89 (2011). This means
that “only a clear error in applying Strickland will support a writ of habeas corpus.” Allen v.
Chandler, 555 F.3d 596, 600 (7th Cir. 2009). So long as the Wisconsin Court of Appeals “took
the constitutional standard seriously and produced an answer within the range of defensible
positions,” this court must deny relief. Taylor v. Bradley, 448 F.3d 942, 948 (7th Cir. 2006)
(citation omitted).
Gage first argues that it was clearly deficient performance for his trial attorney to fail to
interview or call Josh or Nancy Gage as witnesses at trial. On this prong of Strickland, I agree
with Gage. The “Constitution does not oblige counsel to present each and every witness that
is suggested to him,” and a “lawyer’s decision to call or not to call a witness is a strategic
decision generally not subject to review .’’Adams v. Bertrand, 453 F.3d 428, 434-35 (7th Cir.
2006) (citation omitted). But as the Court of Appeals for the Seventh Circuit has explained,
: “[f]ew decisions not to present testimony can be considered ‘strategic’ before some
investigation, has taken place,” and “[a]n outright failure to investigate witnesses ... is more
14

likely to be a sign of deficient performance.” United States v. Best, 426 F.3d 937, 945 (7th Cir.
2005). See also Rompilla v. Beard, 545 U.S. 374, 387 (2005) (“It is the duty of the lawyer to
conduct a prompt investigation of the circumstances of the case and to explore all avenues
leading to facts relevant to the merits of the case and the penalty in the event of conviction.”)
(citation omitted); Mosley v. Atchison, 689 F.3d 838, 848 (7th Cir. 2012) (not reasonable trial
strategy to fail to call witnesses who were never even interviewed).
In this instance, the record does not support a conclusion that trial counsel’s failure to
investigate Josh’s and Nancy’s potential testimony was reasonable or strategic. Counsel knew
that the state had no physical evidence or witnesses to corroborate H.R.G.’s testimony
regarding the assaults. Counsel also knew that Josh was present in the houses where each of
the assaults occurred and that Nancy was in the residence where at least two of the assaults
occurred. Finally, counsel knew that the case against Gage would essentially boil down to a
credibility contest between Gage and H.R.G. Any testimony that would undermine H.R.G.’s
allegations could be critical. But counsel failed to even investigate whether Josh of Nancy could
have provided testimony to bolster Gage’s defense.
Counsel’s reasons for failing to investigate either witness are not persuasive. Counsel
testified at the postconviction hearing that he thought that Josh may have given unfavorable
testimony because he did not have a good relationship with Gage. As for Nancy, counsel
considered calling her but decided that the jury would discount her testimony as biased in favor
of her son. Counsel’s explanation that he.thought the jury would discount Nancy’s testimony
as biased appears disingenuous, in light of the fact that counsel called Gage in his own defense.
Additionally, trial counsel could not reasonably reject Josh and Nancy as potential witnesses
until he at least interviewed them to find out what their testimony would be. Because he never
15

found out what Josh’s or Nancy’s testimony would be, trial counsel could not have made a
reasonable professional judgment that their testimony would have been dangerous, bolstered
the state’s case, or added nothing of significance. See Toliver v. McCaughtiy, 539 F.3d 766, 775
(7th Cir. 2008) (“[CJounsel could not have made a reasonable strategic decision not to call
[potential witness] without interviewing him in order to evaluate his proposed testimony, his
credibility or his demeanor.”).
Although I conclude that Gage’s trial counsel performed deficiently, that conclusion
does not end the Strickland analysis.'The Wisconsin'Court of Appeals did not reject Gage’s
ineffective assistance claim based on the deficient performance prong of Strickland. The court
of appeals instead concluded that Gage did not suffer prejudice from his attorney’s failure to
call Josh and Nancy as witnesses. The question for this court is whether the court of appeals
applied Strickland unreasonably in concluding that Gage had not shown prejudice. See Carter v.
Duncan, 819 F.3d 931, 943 (7th Cir. 2016) (even if counsel’s performance was deficient for
failing to interview potential witnesses, conviction must be upheld if state court’s prejudice
analysis was not unreasonable). So long as the state court’s conclusion is “one of several equally
plausible outcomes,” I must allow the decision to stand. Frentz v. Brown, 876 F.3d 285, 295
(7th Cir. 2017).
The court of appeals concluded that Gage was not prejudiced by counsel’s failure to call
Josh or Nancy Gage as witnesses at trial because the proffered testimony would not have
changed the outcome of the trial. In reaching this conclusion, the court of appeals failed to
discuss some noteworthy statements in Josh’s and Nancy’s proffered testimony. Josh’s and
Nancy’s testimony that they never witnessed any sexual touching or unusual behavior between
Gage and H.R.G. would have made H.R.G.’s testimony at trial that Gage sexually assaulted her
16

“almost every time [she] visited” at least somewhat doubtful’. Josh’s testimony about the close
sleeping quarters in all three residences where the assaults occurred and the creaky ladder in ‘
the cabin.supports the defense’s theory that Josh would have likely heard or seen at least one
of the assaults. Nancy’s testimony that she was the primary caregiver for Josh and H.R.G, that
she had a close relationship with H.R.G., that H.R.G. refused her offer of a room upstairs away
from Gage, and that she thought H.R.G. and Gage had a normal relationship, could have
undermined H.RG.’s credibility.1 And the fact that the jury acquitted Gage on count 1 suggests
that they may have not found H.R.G. to be entirely credible so that testimony supporting Gage
may have changed the outcome.
Nevertheless, the remainder of the state court’s analysis is sufficient to assure me that
the court’s prejudice analysis is not “unreasonable” and is at least a “plausible outcome.” See
Carter, 819 F.3d at 948 (affirming conviction even though state court’s prejudice analysis was
flawed in some respects); Hardaway v. Young, 302 F.3d 757, 762 (7th Cir. 2002) (“A state court
decision must be more than incorrect from the point of view of the federal court; AEDPA
requires that it be ‘unreasonable,’ which means something like lying well outside the boundaries

1 Gage argues that this court must accept as true the trial court’s statement after the
postconviction hearing that, “Nancy’s testimony, if believed by the jury, would have
undermined the credibility of [H.R.G].” Gage argues that this is a finding of fact that should
be presumed correct. But this statement made by the trial court judge is not a “finding of fact”
entered by a state court. See Morris v. Bartow, 832 F.3d 705, 709 (7th Cir. 2016) (findings of
fact “entered” by the state court are presumed correct) (citing 28 U.S.C. §
2254(e)(l)(“determination of a factual issue made by a State court shall be presumed to be
correct”)). The trial court judge was simply discussing the potential impact of Nancy’s
testimony. He went on to say multiple times that “a jury might discount her testimony as being
a loving mother supportive of her son” and “her testimony might likely be discounted by the
jury.” Dkt. 10-18 at 14, 18. Moreover, on habeas review, this court must evaluate the court of
appeals’ analysis of the prejudice prong, not the trial court’s decision. Williams v. Bartow, 481
F.3d 492, 497-98 (7th Cir. 2007).
17

of permissible differences of opinion.”). The court stated that Josh’s and Nancy’s testimony
was generally “consistent” with H.R.G.’s testimony and did not “undermin[e] the victim’s
account in any significant way.” Dkt. 10-10 at 9, 10. This conclusion is not unreasona'ble. Josh
and Nancy confirmed H.R.G.’s description of the various residences and of the general sleeping
arrangements. And H.R.G. had already admitted at trial that her grandmother’s sewing room
was near the location of the assaults, that Josh was always in close proximity to the assaults,
that Josh could have the heard the assaults or walked in the room at any time during the
assaults, that she had declined her grandmother’s offer of a bedroom upstairs because she
wanted to be near josh, and that the cabin where count 3 occurred was small and sound
travelled through it. Josh’s and Nancy’s testimony would only corroborate H.R.G.’s own
testimony on these points. The court of appeals found it particularly significant that H.R.G.’s
account at trial was that Gage assaulted her after everyone had gone to sleep. Thus, Josh’s and
Nancy’s testimony that they never witnessed any assaults would not have directly undermined
H.R.G.’s account.
This is not a case in which defense counsel failed to call an alibi witness or eyewitness
who would have directly contradicted a witness proffered by the state, U.S. ex rel. Hampton v.
Leibach, 347 F.3d 219, 256 (7th Cir. 2003) (counsel’s failure to investigate two potential
eyewitnesses who would have contradicted eyewitness testimony at trial was prejudicial), or a
case in which some excluded evidence would have obviously undermined the victim s
credibility, Sussman v. Jenkins, 636 F.3d 329, 358 (7th Cir. 2011) (petitioner was prejudiced by
counsel’s failure to introduce evidence that alleged victim had falsely accused his father of
sexual assault). Instead, the most significant import of Josh’s and Nancy’s testimony—that
neither witness saw or heard anything that would have indicated to them that Gage was
18

sexually assaulting H.R.G—had minimal evidentiary value in light of the state’s theory that
Gage was calculating, manipulative, and assaulted H.R.G. only after Josh and Nancy were
asleep in separate rooms. See, e.g., Carter, 819 F.3d at 949 (because potential witness testimony
.would have had “limited” value in light of the particular charges at issue, petitioner did not
establish prejudice in counsel’s failure to introduce it). Under the circumstances of this case, it
*
was reasonable for the court of appeals to conclude that the likelihood of a different result was
not substantial. Richter, 562 U.S. at 112 (in assessing prejudice under Strickland, the likelihood
of a different result must be “substantial, not just conceivable.”).
In sum, although trial counsel’s performance was deficient in failing to investigate
potential witnesses, the state court’s resolution of the prejudice issue was not unreasonable
within the meaning of 28 U.S.C. § 2254(d). Accordingly, Gage is not entitled to relief on this
claim.
2. Failure to seek removal of “America’s Most Wanted” plaque
Gage’s second ineffective assistance of counsel claim is based on counsel’s failure to
request that the court remove the “America’s Most Wanted” plaque commemorating Gage’s
arrest from the courthouse hallway. As with Gage’s ineffective assistance claim regarding
potential witnesses, the Wisconsin Court of Appeals resolved this claim by concluding that
Gage had failed to show that he was prejudiced by counsel’s inaction. The court stated that
Gage had failed to “present any evidence at the postconviction hearing to suggest that any juror
had seen the plaque, much less noticed Gage’s name on it.” Dkt. 10-10 at 9. Further, the court
determined that it was “unlikely” that any juror would have seen the plaque, much less read it,
“because the plaque was not prominently placed, and no juror mentioned having seen it when
questioned about [his or her] knowledge of the case during voir dire.” Id.
19

Gage has not shown that the court of appeals’ decision is the result of an unreasonable
application of Strickland or an unreasonable determination of the facts in light of the evidence.
Gage argues that the jurors walked by the plaque every day, likely saw the plaque, and were
prejudiced against Gage as a result. But he has not presented any evidence to contradict the
state court’s findings that the plaque was not prominent and that no juror reported seeing it.
(Notably, the trial court judge stated during the postconviction hearing that he frequently
walked through the hallway containing the plaque and had never noticed it.) I agree with the
state court that Gage has failed to show a reasonable probability that he would have been
acquitted if his counsel had moved for removal of the plaque. See Strickland, 466 U.S. at 694.
Accordingly, Gage is not entitled to relief on this claim.
B. Sentencing challenges
Gage brings two arguments relating to information used by the state court during
sentencing. First, he argues that the state court violated his right to due process by relying on
inaccurate information regarding his likelihood of sex offense recidivism. Second, he argues
that the state court gave too much weight to his failure to appear for a mandatory court hearing
while he was in Canada. I address each argument below.
1. Inaccurate information

•

All criminal defendants have a due process right to be sentenced on the basis of accurate
information. Promotor v. Pollard, 628 F.3d 878, 888 (7th Cir. 2010) (citing United States v.
Tucker, 404 U.S. 443, 447 (1972) and Townsend v. Burke, 334 U.S. 736, 741 (1948)). But not
all inaccuracies deprive a defendant of due process; the incorrect information must be
“materially untrue.” Promotor, 628 F.3d at 888 (quoting Townsend, 334 U.S. at 741). A
defendant who requests resentencing must establish that the sentencing court “relied on the
20

critical inaccurate information when announcing its sentence.” Id. (citing Simonson v. Hepp, 549
F.3d 1101, 1107 (7th Cir. 2008)). A sentencing court “relies” on misinformation by “giv[ing]
explicit attention to it, found[ing] its sentence at least in part on it, or giv[ing] specific
consideration to the misinformation before imposing sentence.” Id. (citation and quotations
omitted).
Gage argues that the sentencing judge sentenced him based on materially incorrect
information about his likelihood of recidivism. Gage points to the statement by the clinical
psychologist who conducted his psychosexual evaluation after sentencing that Gage’s “denial”
is not a risk factor associated with increased recidivism. But this does not establish the falsity
. of the presentence investigation agent’s opinion that sex offenders in denial “are at higher risk.”
Rather, as the Wisconsin Court of Appeals concluded, Gage has shown only that the agent’s
opinion “differed from the opinion of Gage’s postconviction expert.” Dkt. 10-10 at 13. The
court of appeals also explained that the sentencing judge “could properly take into account
allegations of sexual abuse relating to Gage’s sister, his ex-wife, the daughter of his former
. girlfriend and the niece of his current wife, which were not reflected in the calculation of Gage’s
risk of sexual recidivism because they did not result in convictions that could be plugged into
the actuarial instruments.” Id. at 14. The court of appeals’ analysis of this claim is reasonable,
is not contrary to Supreme Court authority, did not involve an unreasonable application of
federal law, and is not based upon an unreasonable determination of the facts. Accordingly,
Gage is not entitled to relief on this claim.
2. Undue weight on Gage’s move to Canada
Gage’s final argument is that the sentencing court abused its discretion by placing undue
weight on Gage’s missing a court hearing after moving to Canada. But Gage cites only
21

Wisconsin case law in support of this claim and does not identify any constitutional right that
was implicated by the state court’s exercise of its sentencing discretion. Therefore, I agree with
the state that this claim raises only a violation of state law and does not implicate a
constitutional or federal claim on which Gage could obtain habeas relief. See Arnold v. Dittmann,
901 F.3d 830, 835 (7th Cir. 2018). (“[EJrrors of state law are not cognizable on habeas
review.”); ICyles v. Meisner, No. 12-CV-835, 2013 WL 823416, at *8 (E.D. Wis. Mar. 6, 2013)
(challenging to “trial court’s sentencing determination on the grounds it placed undue weight
on one factor and failed to adequately explain the basis for its sentence” involved issue of state
law that could not provide habeas relief).
Even if Gage had identified a constitutional basis for this claim, I would conclude that
the Wisconsin Court of Appeals’ adjudication of the claim was appropriate. The court
concluded that the sentencing judge’s inference that Gage had attempted to flee prosecution
was amply supported by the record and that Gage’s move was only one among many factors
’that the judge considered at sentencing. Dkt. 10-10 at 14. My own review of the sentencing
transcript confirms that this analysis is reasonable. Accordingly, Gage is jiot entitled to relief
on this claim either.
C. Certificate of appealability
The only remaining question is whether to grant Gage a certificate of appealability.
Under Rule 11 of the Rules Governing Section 2254 Cases, the court must issue or deny a
certificate of appealability when entering a final order adverse to a petitioner. To obtain a
certificate of appealability, the applicant must make a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. §. 2253(c)(2); Tennard v. Dretke, 542 U.S. 274, 282 (2004).
This means that “reasonable jurists could debate whether (or, for that matter, agree that) the
22

petition should have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.” Miller El v. Cockrell, 537 U.S. 322, 336
(2003) (internal quotations and citations omitted).
Gage is entitled to a certificate of appealability on his claim that his trial counsel was
ineffective for not investigating or calling Josh Gage and Nancy Gage as witnesses at trial. That
question is close enough that reasonable jurists might resolve it differently. The proper
resolution of his other claims, however, is not reasonably debatable.

ORDER
IT IS ORDERED that:
1. Petitioner Patrick J. Gage’s petition for a writ of habeas corpus under 28 U.S.C.
§ 2254 is DENIED.
2. Gage is GRANTED a certificate of appealability solely on his claim of ineffective
assistance of counsel based on counsel’s failure to investigate and call josh Gage
and Nancy Gage as witnesses. He may seek a certificate from the court of appeals
under Fed. R. App. P. 22 for his other claims.
Entered April 29, 2019.

BY THE COURT:
/s/
JAMES D. PETERSON
District Judge

23

